DOE F 1325.8
(08-93)
United States Government                                                         Department of En


Memorandum                                                                   OFFICE OF INSPECTOR GENERAL


       DATE:
    REPLY TO
                MAY 0 9 2005
     ATTN OF:   IG-34 (A05PR040)                                        Audit Report No.: OAS-L-05-06

    SUBJECT:    Contractor-Provided Meals for Federal Employees

      TO:       Director, Office of Management, Budget and Evaluation/Chief Financial Officer, ME-1

                The purpose of this report is to inform you of a condition that came to our attention
                during recent audits.

                INTRODUCTION AND OBJECTIVE

                As a general rule, appropriated funds cannot be used to provide meals to Government
                employees. Furthermore, acceptance of meals provided at Government expense by
                Federal employees may violate 5 U.S.C. § 5536, which prohibits a Federal employee
                from receiving compensation in addition to pay and allowances fixed by law. An
                exception to this general prohibition permits employees, in certain cases, to accept
                such meals when they are an integral part of a conference or symposium. In all
                instances when an employee is on official travel, the Federal Travel Regulation (FTR)
                requires employees to reimburse non-Federal sources or adjust meals and incidental
                expenses claimed on travel vouchers to account for the; cost of all contractor-provided
                meals.

                During our audit of employee meal expenses at management and. operating (M&O)
                contractors, we observed instances when M&O contractors provided meals to
                Department of Energy (Department) employees. We also noted similar examples in
                our audit of Central Office Expensesfor the Thomas Jefferson NationalAccelerator
                Facility (DOE/IG-0629, December 2003) and in our audit of Departmentof Energy
                ContractorHome Office Expenses (DOE/IG-0676, February 2005).

                Based on the frequency of these observations, we expanded the scope of our audit of
                contractor meal expenses to determine whether Department employees reimbursed
                M&O contractors or appropriately adjusted their travel claims for contractor-provided
                meals.

                CONCLUSION AND OBSERVATIONS

                Our audit disclosed that Federal employees who accepted contractor-provided meals
                did not always furnish reimbursement or reduce travel claims to account for the value
                of the meals. In certain instances, M&O contractors provided meals to Department
                employees whose duty stations were located at or in close proximity to the contractor's
                site. Our review of contractor records also established that meals were provided to
                Department employees who were visiting the contractors' sites while in a travel status.
As we noted in our Audit Report on Management Controls Over Meal Expenses at
Management and Operating Contractors(OAS-M-05-04, April 2005), the meals we
identified were provided during routine business activities and were not connected
with a formal conference or symposium. The contractors we reviewed charged the
meal costs to their Department contracts and, in most instances, could not furnish
evidence to indicate that the Federal employees reimbursed the contractor for the cost
of the meals. Although our tests were limited, we identified a few Department
employees who were in travel status when they received contractor-provided meals
and did not reimburse the contractor or reduce their claimed subsistence expenses as
required by the FTR. Our testing of Department travel vouchers was limited,
however, due to the implementation of changes to the Department's Travel Manager
system at the time of our review.

While the cost to the Government of the meals we discovered was immaterial
individually as well as in the aggregate, the practice of accepting such meals - without
proper reimbursement or accounting - could adversely impact the credibility of the
Federal employees involved and the Department as a whole. In addition to potential
violations of the FTR and 5 U.S.C. § 5536, acceptance of meals from a contractor can
give the appearance that the objectivity of Department employees in dealings with
contractors has been impaired or compromised.

We discussed our observations with representatives of the National Nuclear Security
Administration, Office of Science, and Fossil Energy, who advised us that corrective
actions have commenced to address this issue. Program officials indicated that they
either planned to or had taken actions such as emphasizing requirements to senior
managers and Federal site-level officials and promulgating supplemental program
level guidance.

To ensure that all of the Department's Federal employees are cognizant of issues and
requirements regarding acceptance of meals from contractors, we recommend that
your office emphasize to Federal employees that as a general rule:

      *   Acceptance of meals from contractors could constitute a violation of
          5 U.S.C. § 5536; and,

      *   Department employees must deduct the cost of contractor-provided meals
          from their travel vouchers or reimburse the contractors for the meal cost.

We appreciate the cooperation of your staff during this review. Please advise us
within 15 work days of any action you plan to take with respect to these observations.



                                          Rickey. Hass, Director
                                          Science, Energy, Technology,
                                            and Financial Audits
                                          Office of Audit Services
                                          Office of Inspector General

                                    2
05/10/U5   UY:3B kAA   3U1   HU3 4000             m
                                            uArl'AL       UI            -,   rui   ri4un




             Attachment

             cc: Deputy Director for Operations, SC-3
                 Director, Office of Budget and Financial Management, FE-3
                 Director, Policy and Internal Control Management, NA-66
                 Team Leader, Audit Liaison, ME-100




                                                3
                                                                                   Attachment



OBJECTIVE

To determine whether Department employees reimbursed M&O contractors for
contractor-furnished meals or adjusted their travel claims for contractor-provided meals.


SCOPE

The audit was performed between July 2004 and January 2005 at Department Headquarters,
Washington, D.C., and at various contractors. Specifically, meal transactions were reviewed
at Lawrence Berkeley National Laboratory, in Berkeley, CA; Y-12 National Security
Complex, in Oak Ridge, TN; Sandia National Laboratories in Albuquerque, NM and
Livermore, CA; Fermi National Accelerator Laboratory in Batavia, IL; Thomas Jefferson
National Accelerator Facility in Newport News, VA and Washington, D.C.; and the
University of California in Oakland, CA and Washington, D.C. Meal transactions reviewed
occurred during FY 2001 through FY 2003.

METHODOLOGY

To accomplish the audit, we:

      * Obtained and reviewed applicable laws and regulations;

      * Judgmentally selected a sample of transactions for contractor-provided meals; and,

      * Reviewed travel vouchers for selected Department employees.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We did not identify any performance measures or goals
applicable to contractor-provided meals as required by the Government Performanceand
Results Act of 1993. We relied on computer-processed data to accomplish the audit objective.
When appropriate, we performed limited test work of data reliability during our audit and
determined that we could rely on the computer-processed data.

 Management waived an exit conference.




                                            4
: 'R. 1325.8
     -89)
ERU (07-90)

United States Government                                                                       Department of Energy

Memorandum
           DATE:       MAY 12 2005
     REPLY TO:       IG-34 (A05PR040)

      SUBJECT:       Final Report Package for "Contractor-Provided Meals for Federal Employees"
                     SAudit Report No.: OAS-L-05-06

               TO:   George W. Collard, Assistant Inspector General for Audit Operations

                Attached is the required final report package on the subject audit. The pertinent details are:

                1. Actual Staff days:              15

                     Actual Elapsed days:         49

                2. Names of OIG and/or contractor audit staff:

                            Team Leader:          Steve Stronczer
                            Auditor-in-Charge:    Clem Gallo
                            Audit Staff:          Lisa Williams
                                                  Chris Narlis

                3. Coordination with Investigations and Inspections:

                            Coordination also covered in contractor meals audit - A04PR010.

                            Investigations
                            Yvette Milam (11/24/03; 8/3/04)

                            Inspections
                            Henry Minner (11/24/03)
                            Margaret Lapham (8/3/04 thru Milam)




                                                                  Rickey R. Hass, Director
                                                                  Science, Energy, Technology,
                                                                    and Financial Audits
                                                                  Office of Audit Services
                                                                  Office of Inspector General


                     Attachments:
                     1. Final Report
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                    MONETARY IMPACT OF REPORT NO.: OAS-L-05-06


1. Title of Audit:     Contractor-Provided meals for Federal Employees

2. Division:           Science, Energy, Technology, and Financial Audits Division

3. Project No.:        A05PR040

4. Type of Audit:

      Financial:                                          Performance:        X
         Financial Statement                                Economy and Efficiency              X
         Financial Related                                  Program Results
      Other (specify type):

5.

                                                                                               MGT.       POTENTIAL
       FINDING           COST AVOIDANCE                     QUESTIONED COSTS                 POSITION      BUDGET
                                                                                               __IMPACT
(A)         (B)            (C)      (D)         (E)           (F)       (G)        (H)          (I)          (J)
            Title         One    Recurring   Questioned      Unsup-   Unre-       Total      C=Concur       Y=Yes
                          Time    Amount                     ported   solved   (E)+(F)+(G)   N=Noncon       N=No
                                  PerYear                                                    U=Undec




TOTALS--ALL FINDINGS




6. Remarks: Our audit disclosed that Federal employees who accepted contractor-provided
            meals did not always furnish reimbursement or reduce travel claims to account
            for the value of the meals. While the cost to the Government of the meals we
            discovered was immaterial individually as well as in the aggregate, the practice
               of accepting such meals - without proper reimbursement or accounting - could
               adversely impact the credibility of the Federal employees involved and the
               Department as a whole.

7. Contractor:  N/A                              10. Approvals:
8. Contract No.: N/A                             Division Director/Date:-          A         S"1(I,/O0
9. Task Order No.:      N/A                      Technical Advisor & Date                     4A____
                                                          Office of the Inspector General (OIG)
                                                    Audit Project Office Summary (APS)
                                                                                                                                          Page 1
Report run on:                                May 10, 2005 10:06 AM


  Audit#: A05PR040                           Ofc:   PRA     Title: CONTRACTOR PROVIDED MEALS FOR DOE

                                                                            ***    Milestones    ***
                                                           Planned                End of Survey           Revised          Actual


   Entrance Conference:.....                              21-MAR-05                                    21-MAR-05         21-MAR-05

   Survey:        .................
   Draft Report:............
   Completed          (With Report):.                     30-SEP-05                                                      09-MAY-05   (R   )
   ------------            Elapsed Days:                      193                                                             49
                                                                                                             Elap. Less Susp:
   Date Suspended:                                                              Date Terminated:
   Date Reactivated:                                                            Date Cancelled:
   DaysSuspended(Cur/Tot):                                                  ) eport Number:
   Rpt Title:                                                                   Report Type:           LTR   LETTER REPORT
   CONTRACTOR-PROVIDED MEALS FOR FEDERAL EMPLOYEES; OAS-L-05-06, DATED MAY 9, 2005



                                      S***                          Audit Codes and Personnel ***
   Class:    PER                 PERFORMANCE
   Function:                     Not Found
  MgtChall:                     Not Found
                                                                                                AD:    403    HASS
   Site:            MRA          MULTI-REGION AUDIT
                                                                                            AIC:       116    GALLO JR
   SecMiss:         CMT         CORPORATE MANAGEMENT
                                                                                       Team Ldr:       115    STRONCZER
   PresInit: IFP                 IMPROVED FINANCIAL P                                  Tech Adv:       84     CROWDER

                                                              ***          Task Information ****

         Task No:
          Task Order Dt:                                                        CO Tech. Rep:
          Orig Auth Hrs:                                                        Orig Auth Costs:
          Current Auth:                                                         Current Auth Cost:
          Tot Actl IPR Hr:                                                      Tot Actl Cost:

                                                                            i
                                                                    ****             ';
                                                                                Tme" Charges ****

                          Emp/Cont Name                     Numdays                  Last Date
                           STRONCZER, S                               2.9            30-APR-05
                          GALLO JR, C                               12.1             30-APR-05
                            Total:                                  15.0

                                                            ****     Keywords! ***



                          5 USC 5536
                          ADJUST TRAVEL VOUCHERS
                                                                                    Attachment 4

                       AUDIT DATABASE INFORMATION SHEET

1.   Project No.: A05PR040

2.   Title of Audit: Contractor-Provided Meals for Federal Employees

3.   Report No./Date: OAS-L-05-06/May 9, 2005

4.   Management Challenge Area: Contract Administration

5.   President Mgmt Initiative: Improved Financial Performance

6.   Secretary Priority Initiative: Corporate Management

7.   Program Code: Multi-Program

8.   Location/Sites:
        Department Headquarters and selected contractors:
                * Lawrence Berkeley National Laboratory, in Berkeley, CA
                * Y-12 National Security Complex in Oak Ridge, TN
                " Sandia National Laboratories in Albuquerque, NM and Livermore, CA
                * Fermi National Accelerator Laboratory in Batavia, IL
                * Thomas Jefferson National Accelerator Facility in Newport News, VA
                * University of California in Oakland, CA, and Washington, DC

9.   Finding Summary:
     * As a general rule, appropriated funds cannot be used to provide meals to Government
        employees and acceptance of meals provided at Government expense by Federal
        employees may violate 5 U.S.C. § 5536, which prohibits a Federal employee from
         receiving compensation in addition to pay and allowances fixed by law. For employees
         on official travel, the Federal Travel Regulation (FTR) requires employees to reimburse
         non-Federal sources or adjust meals and incidental expenses claimed on travel vouchers
         to account for the cost of all contractor-provided meals. During our audit of employee
         meal expenses at management and operating (M&O) contractors and during other prior
         audits, we observed instances when M&O contractors provided meals to Department
         employees.

     *   The objective of the audit was to determine whether Department employees reimbursed
         M&O contractors or appropriately adjusted their travel claims for contractor-provided
         meals.
      * Our audit disclosed that Federal employees who accepted contractor-provided meals did
        not always furnish reimbursement or reduce travel claims to account for the value of the
        meals. In certain instances, M&O contractors provided meals to Department employees
        whose duty stations were located at or in close proximity to the contractor's site.
        Although our tests were limited, we identified a few Department employees who were in
        travel status when they received contractor-provided meals and did not reimburse the
        contractor or reduce their claimed subsistence expenses as required by the FTR.

      * While the cost to the Government of the meals we discovered was immaterial
        individually as well as in the aggregate, the practice of accepting such meals - without
        proper reimbursement or accounting - could adversely impact the credibility of the
        Federal employees involved and the Department as a whole. In addition to potential
        violations of the FTR and 5 U.S.C. § 5536, acceptance of meals from a contractor can
        give the appearance that the objectivity of Department employees in dealings with
        contractors has been impaired or compromised.

      * Program officials indicated that they either planned to or had taken actions such as
        emphasizing requirements to senior managers and Federal site-level officials and
        promulgating supplemental program level guidance. We recommended that the Office of
        Management, Budget and Evaluation/Chief Financial Officer emphasize to Federal
        employees that as a general rule acceptance of meals from contractors could constitute a
        violation of 5 U.S.C. § 5536 and Department employees must deduct the cost of
        contractor-provided meals from their travel vouchers or reimburse the contractors for the
        meal cost.

10.   Keywords:
      * Contractor-provided meals
      * Federal employees
      * Federal Travel Regulations
      * Reimburse contractors
